Final Assessment Report 08-11, September 18, “WebTrust Assessment of GPO’s
Certification Authority – Attestation Report”

GPO implemented a Public Key Infrastructure (PKI) to support its mission related to
electronic information dissemination and e-government, and to meet GPO customer
expectations that documents are official and authentic. The GPO PKI is certified with the
Federal Bridge Certificate Authority (FBCA) whose certification provisions require that
the GPO PKI undergo an annual independent compliance review. To satisfy this
compliance requirement, the GPO Office of Inspector General tasked an independent
public accounting (IPA) firm to conduct a WebTrust assessment of its Certification
Authority (CA). The assessment was conducted in accordance with the American
Institute of Certified Public Accountants (AICPA) "WebTrust Principles and Criteria for
Certification Authorities." The assessment represents an evaluation of whether GPO
management's assertions related to the adequacy and effectiveness of controls over its CA
operations is fairly stated based on underlying principles and evaluation criteria.

For the period July 1, 2007 through June 30, 2008, the IPA issued an Attestation Report
which expressed its unqualified opinion that GPO's management assertion related to its
CA operations was in all material respects, fairly stated based on the AICPA WebTrust
for Certification Authorities Criteria. The final report is considered sensitive.




SENSITIVE BUT UNCLASSIFIED INFORMATION – FOR OFFICIAL USE ONLY
                                           1
